OIG Investigative Reports, Former Deputy State School Superintendent Pleads Guilty to Funneling State Money to Schrenko Campaign
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Reports
FOR IMMEDIATE RELEASE
January 10, 2005
U. S. Attorney's Office
Northern District of Georgia
75 Spring Street, S.W. - Suite 600
Atlanta, Georgia 30303
Tel: 404-581-6000
Fax: 404-581-6181
Former Deputy State School Superintendent Pleads Guilty to Funneling State Money to Schrenko Campaign
David E. Nahmias, United States Attorney for the Northern District of Georgia, Lester Fernandez, Special Agent in Charge, U.S. Department of Education, Office of the Inspector General, and Gregory Jones, Special Agent in Charge, Federal Bureau of Investigation announce that MERLE TEMPLE, JR., 56, of Evans, Georgia, has entered a plea of guilty before United States District Judge Clarence Cooper. TEMPLE pleaded guilty to charges of conspiracy, theft of federal funds, and  wire fraud.  According to Nahmias:
TEMPLE was indicted by a federal grand jury on the charges on November 10, 2004. According to the indictment and information presented in court today, TEMPLE is a former Deputy State School Superintendent and manager of the 2002 gubernatorial campaign of Linda Schrenko.  TEMPLE has pleaded guilty to having conspired during the summer of 2002 with Schrenko, who at the time was the State School Superintendent, and A. Stephan Botes of Alpharetta, Georgia, the owner of a computer consulting company, to fraudulently obtain over a half million dollars of federal funds administered by the Georgia Department of Education in order that a portion of those funds could then be funneled to TEMPLE, Schrenko, and others for the benefit of Schrenko's gubernatorial campaign.
In furtherance of that conspiracy, TEMPLE directed an employee of the State Department of Education to prepare documents in order that  Schrenko could direct the issuance of payments, in amounts just under $50,000, totaling over $500,000, to various companies owned and controlled by Botes, which purportedly were to provide computer licenses and services. The services were never were provided  to the Atlanta Area School for the Deaf, the Georgia School for the Deaf, and the Governor's Honors Program. Additional actions taken by TEMPLE in furtherance of that conspiracy included: distribution of "focus group" checks that were prepared by Johnathan Turner, former controller of a company owned and controlled by Botes, in order that cash received from those checks would be illegally contributed to the Schrenko campaign; opening a bank account, under the name of Paradigm Pioneers, at the direction of Botes, into which Botes caused funds to be deposited from  foreign and domestic bank accounts controlled by Botes; providing Schrenko funds derived from the Paradigm Pioneers account that  Schrenko then contributed to her campaign; and utilizing funds deposited into the Paradigm Pioneers account to pay for personal expenses of Schrenko after the conclusion of unsuccessful gubernatorial campaign,  including payments for cosmetic surgery costing $9300.
TEMPLE also pleaded guilty to separate counts in the indictment for having engaged in thefts of federal funds through his role in the illegal issuance of federal funds administered by the Georgia Department of Education to a company controlled by Botes. TEMPLE also pleaded guilty to wire fraud for his involvement in the transmission of $40,000 from a foreign bank account controlled by Botes into the Paradigm Pioneer bank account that TEMPLE opened.
Pursuant to his plea agreement, TEMPLE agreed to cooperate fully and truthfully with the government in the ongoing investigation and to immediately pay $199,500 in restitution.
United States Attorney David E. Nahmias said, "The former Deputy State School Superintendent has pleaded guilty to conspiring to divert public funds to help finance a political campaign, knowing that those funds are intended for the education of children in Georgia and for their education. This is another guilty plea in this case involving an individual who placed greed and political gain ahead of his duties to serve the citizens of Georgia."
Assistant United States Attorneys Russell G. Vineyard and Daniel A. Caldwell are prosecuting the case.
For further information please contact David E. Nahmias, United States Attorney  or F. Gentry Shelnutt, Chief, Criminal Division, through Patrick Crosby, Public Affairs Officer, U.S. Attorney's Office, at (404) 581-6016.  The Internet address for the HomePage for the U.S. Attorney's Office for the Northern District of Georgia is www.usdoj.gov/usao/gan.
Top
Printable view
Share this page
Last Modified: 03/02/2005
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov